HHS/OIG-Audit--"Review of Unfunded Pension Costs of Aetna Life and Casualty Company, (A-07-98-02506)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Aetna Life and Casualty Company,"
(A-07-98-02506)
August 5, 1998
Complete Text of Report is available in PDF format
(854 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Unfunded Pension Costs
of Aetna Life and Casualty Company (Aetna). During our previous review of Aetna
(CIN A-07-93-00679), we determined that the Medicare segment accumulated $4,455,857
in unfunded pension costs as of January 1, 1991. We recommended that Aetna identify
those unfunded pension costs as an unallowable component of subsequent years'
pension cost calculations. We also recommended that Aetna update the accumulated
unfunded pension costs, and identify and track similar costs occurring in later
years.
Our current review showed that Aetna did identify and update the accumulated
unfunded pension costs from 1991 through 1995. Additionally, Aetna identified
and tracked additional unfunded pension costs for years 1991 through 1995. However,
we determined that Aetna understated its accumulated unfunded pension costs
by $1,407,689 as of January 1, 1996. The understatement occurred because Aetna
incorrectly began amortizing the accumulated unfunded costs as a component of
the Medicare segment's pension costs in 1995.
We recommend that Aetna increase the January 1, 1996 accumulated unfunded pension
costs of the Medicare segment by $1,407,689. We also recommended that Aetna
obtain approval of its contracting officer before including any portion of the
accumulated unfunded costs as a component of the Medicare segment's pension
costs.